No. 20-5279
IN THE

Supreme Court of the United States
WILLIAM DALE WOODEN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit
BRIEF OF HUMAN RIGHTS FOR KIDS AS
AMICUS CURIAE IN SUPPORT OF PETITIONER
James Dold
Suzanne S. La Pierre
John Ellem
Human Rights for Kids
P.O. Box 5960
Washington, DC 20016
(202) 573-7758

Tony W. Torain, II
Counsel of Record
D. Jack Blum
Alexandra Brooks
Polsinelli PC
1401 I ("Eye") Street, N.W.
Suite 800
Washington, DC 20005
(202) 783-3300
twtorain@polsinelli.com

Attorneys for Amicus Curiae
May 10, 2020

TABLE OF CONTENTS
TABLE OF CONTENTS
TABLE OF AUTHORITIES

iii

INTEREST OF AMICUS CURIAE

1

SUMMARY OF ARGUMENT

2

ARGUMENT

5

I. AN EXPANSIVE INTERPRETATION
OF THE ARMED CAREER CRIMINAL
ACT WOULD BE ESPECIALLY
HARMFUL TO CHILD OFFENDERS.

5

Under the Sixth Circuit's
Interpretation of the Statute, Minor
Offenders Will Enter Adulthood as
Career Criminals.

6

This Court Has Long Recognized
that the Decisions of Child
Offenders Are Not Indicative of
"Career Criminal" Status.

10

II. EXPANSIVE INTERPRETATION OF
THE ARMED CAREER CRIMINAL
ACT CONTRAVENES
CONGRESSIONAL INTENT AND
SHOULD BE NARROWED.

19

A. ACCA was Only Intended to Apply
to the Narrow Subset of
Irredeemable Offenders Identified
after Multiple Opportunities for
Rehabilitation

21

11

B. The Act Requires a Narrow
Interpretation of Temporal
Separateness.
CONCLUSION

24
28

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Alaska v. Carlson,
560 P.2d 26 (Alaska 1977)

23

Bellotti v. Baird,
443 U.S. 622 (1979)

11

Blount v. Clarke,
890 F.3d 456 (4th Cir. 2018)
Eddings v. Oklahoma,
455 U.S. 104 (1982)

9
10, 11, 16, 17

Ewing v. California,
538 U.S. 11 (2003) (Breyer, J.,
dissenting)

23

In re Gault,
387 U.S. 1 (1967)

19

Ginsberg v. New York,
390 U.S. 629 (1968)

11

Graham v. Florida,
560 U.S. 48 (2010)
Johnson v. Texas,
509 U.S. 350 (1993)

passim
12, 16, 17

Johnson v. United States,
576 U.S. 591 (2015)

19

Jones v. Mississippi,
No. 18-1259, slip op., 593 U.S.
(2021)

14

iv
Kansas v. Lohrbach,
217 Kan. 588 (1975)

23

Miller v. Alabama,
567 U.S. 460 (2012)

14, 16

Montclair v. Ramsdell,
107 U.S. 147 (1882)

25

Montgomery v. Louisiana,
577 U.S. 190 (2016)

14

Prince v. Massachusetts,
321 U.S. 158 (1944)

11

Roper v. Simmons,
543 U.S. 551 (2005)

12, 13, 14

State v. Ellis,
214 Neb. 172 (1983)

23

State v. Houston-Sconiers,
188 Wash. 2d 1 (Wash. 2017)
State v. Lyle,
854 N.W.2d 378 (Iowa 2014)
Thompson v. Oklahoma,
487 U.S. 815 (1988)

9, 15
15
10, 11

United States v. Abbott,
794 F.3d 896 (8th Cir. 2015)

17

United States v. Bland,
961 F.2d 123 (9th Cir. 1992)

24

United States v. Bordeaux,
886 F.3d 189 (2d Cir. 2018)
(Cabranes, J.)

18

United States v. Chappel,
801 Fed. App'x 379 (6th Cir. 2020)

5, 6

V

United States v. Fuller,

453 F.3d 274 (5th Cir. 2006)

17

United States v. Hill,

440 F.3d 292 (6th Cir. 2006)

17

United States v. Johnson,

130 F.3d 1420 (10th Cir. 1997)

17

United States v. Keesee, '

358 F.3d 1217 (9th Cir. 2004)

5, 6

United States v. Lender,

985 F.2d 151 (4th Cir. 1993)

8

United States v. Longoria;

874 F.3d 1278 (11th Cir. 2017)

5

United States v. Moody;

770 F.3d 577 (7th Cir. 2014)

5, 6

United States v. Pope,

132 F.3d 684 (11th Cir. 1998)

25

United States v. Schoolcraft,

879 F.2d 64 (3d Cir. 1989)

17

United States v. Stearns,

387 F.3d 104 (1st Cir. 2004)

18

United States v. Thomas,

572 F.3d 945 (D.C. Cir. 2009)

17

United States v. Tucker,

603 F.3d 260 (4th Cir. 2010)

18

United States v. Wooden,

945 F.3d 498 (6th Cir. 2019)

20, 25

vi
'Statutes
18 U.S.C. § 922

20, 21

18 U.S.C. § 924

passim

Anti-Drug Abuse Act
Armed Career Criminal Act
Comprehensive Crime Control Act

24, 25
passim
20, 24

Other Authorities
129 Cong. Rec. 22,669-72 (1981)
(statement of Sen. Specter)

20

134 Cong. Rec. 15,806-07 (1988)
(statement of Sen. Specter)

15, 22

Armed Career Criminal Act: Hearing on
H.R. 1627 and S. 52 Before the
Subcomm. on Crime of the House
Comm. on the Judiciary, 98th Cong.,
2d Sess. 6 (1984)

22

Federal Armed Career Criminals:
Prevalence, Patterns, and Pathways,
U.S. Sent'g Comm'n 6 (March 2021)

21

La Pierre, Suzanne S. & James Dold,
The Evolution of Decency: Why
Mandatory Minimum and
Presumptive Sentencing Schemes
Violate the Eighth Amendment for
Child Offenders, 27:2 VA. J. SOC.
POL'Y & L. 167, 176-84 (2020)
H.R. 2908, 117th Congress (2021)

15, 17
7

vii
H.R. Rep. No. 1073, 98th Cong., 2d
Sess. 4, 5 (1984), U.S. Code Cong.
Admin. News 1984

22

Puzzanchera, Charles, et al., Youth
Younger than 18 Prosecuted in
Criminal Court: National Estimate,
2015 Cases, Nat'l Center for
Juvenile Justice (2018)

7

Quick Facts: Felon in Possession of a
Firearm, U.S. Sent'g Comm'n (2012)

21

Report on Human Rights Protections
for Children in the U.S. Justice
System

8

1
INTEREST OF AMICUS CURIAE.
Human Rights for Kids (HRFK) is a non-profit
organization dedicated to the promotion and
protection of the human rights of children. We
incorporate research and public education, coalition
building and grassroots mobilization, as well as policy
advocacy and strategic litigation, to advance critical
human rights on behalf of children. A central focus of
our work is advocating in state legislatures and courts
for comprehensive justice reform for children
consistent with the U.N. Convention on the Rights of
the Child and the International Covenant on Civil
and Political Rights.

I No counsel for a party authored this brief in whole or in part,
and no counsel or party made a monetary contribution intended
to fund the preparation or submission of this brief. No person
other than amici curiae or their counsel made a monetary
contribution to its preparation or submission. Each party
consented to the filing of this brief in accordance with Supreme
Court Rule 37.3.

2
SUMMARY OF ARGUMENT

The Sixth Circuit's overly expansive interpretation of
the Armed Career Criminal Act ("ACCA" or the "Act")
mandates disproportional and unconstitutional
punishment of juvenile offenders in violation of the
Eighth Amendment. ACCA's sentencing
enhancement provision explicitly applies to children
and includes certain juvenile delinquency
adjudications as qualifying predicates for imposition
of its mandatory minimum sentencing requirement.
The Sixth Circuit's broad construction of the
"different occasions" language of the Act sweeps even
more juvenile conduct into ACCA's domain further
compromising the ability of the sentencer to consider
the infirmities of youth and impose a constitutionally
proportional sentence. In expanding the reach of
ACCA beyond the intent of Congress, the Sixth
Circuit paves the way for excessive and potentially
unconstitutional sentences for child offenders. This
erroneous interpretation presents an unacceptable
risk of inflicting permanent, debilitating sentencing
consequences on children that lack any legitimate
penological justification and is thus inconsistent with
this Court's prior rulings that children are different
from adults and these differences neccissitate
heightened constituitonal protections.
This Court has examined the parameters of
juvenile culpability on multiple occasions,
consistently holding that kids cannot be held
accountable according to adult standards because of
their underdeveloped brains
The Court has
repeatedly reaffirmed, as recently as this year, that
the circumstances leading to juvenile crime are

3
transient, not permanent, and as such are
inconsistent with designation of a child as an
"irredeemable, career criminal." Constitutionally
acceptable juvenile sentencing instead requires
consideration of all the mitigating factors associated
with youth in general, as well as the specific situation
of the offender, with rehabilitation as the primary
goal.
The Sixth Circuit's expansive interpretation of
ACCA, however, contravenes this directive as it
would result in even more children entering
adulthood permanently branded as career criminals,
solely as a result of conduct precipitated by their still
developing brains. Tragically, the consequences of
this fleeting state of neurophysiological development,
over which they have no control and which they will
outgrow, will persist, relegating them to an adult life
of diminished opportunities at best, and incontestible
felonious status, at worst.
Under the Sixth Circuit's reading of ACCA's
"different occasions" language, circumstances this
Court has previously described as transient will
instead become a permanent albatross around a
child's neck. A child who exercises poor judgement or
succombs to peer pressure as a result of cognitive
immaturity, or who has been subject to abuse and
neglect, risks being deemed a career criminal in direct
contradiction to what Congress intended. Adopting
the Sixth Circuit's interpretation of the Act would
greatly increase the likelihood of an individual
qualifying for an enhancement under the Act even
before reaching adulthood. This additional stripping
of sentencers' discretion to consider the actual

4
circumstances triggering offenses committed by kids
undermines the rehabilitation goal of this Court's
juvenile sentencing precedent.
By allowing sequential actions ocurring on a single
night, at a single location, and in furtherance of a
single criminal opportunity, to morph into "career
criminal" status, the Sixth Circuit has directly
contradicted the plain language and purpose of
ACCA.
The effects of this interpretation are
magnified when children are involved. The statute
was intended to protect the public against hardened,
veteran criminals, not children, regardless of the
severity of the crimes they have committed during one
day or night of intemperate behavior. Equating an
individual's poor decision-making on a single night
with perpetual and irredeemable criminality is
unjustified when applied to adults, and
unconscionable when applied to children.

5
ARGUMENT
I. AN EXPANSIVE INTERPRETATION OF THE
ARMED CAREER CRIMINAL ACT WOULD BE
ESPECIALLY HARMFUL TO CHILD
OFFENDERS.
Currently, some circuits, including the Sixth,
apply an unjustifiably expansive test to determine
whether previous offenses meet the "different
occasions" requirement of ACCA. This interpretation
is particularly harmful when applied to children in
subjecting even more of them to imposition of ACCA's
mandatory 15-year sentencing enhancement
provision than the more common sense reading of the
phrase entails. The enhancement would be triggered
by convictions for multiple offenses, as well as certain
juvenile delinquency determinations, even when the
prior transgressions were committed as part of the
same criminal opportunity, conspiracy or spree.2
Given the often impulsive behavior of children,
especially adolescents, resulting from their underdeveloped brains, this analysis could result in child
offenders becoming career criminals based solely on
one night's improvident conduct.3

See, e.g., United States v. Longoria, 874 F.3d 1278 (11th Cir.
2017) (finding Adam Longoria was a career criminal based on
two sales of controlled substances and one count of conspiracy
related to the sales).
United States v. Chappel, 801 Fed. App'x 379, 383 (6th Cir.
2020); see also United States v. Moody, 770 F.3d 577, 580 (7th
Cir. 2014) (citing Shepard v. United States, 544 U.S. 13, 15-17
(2005)); United States v. Keesee, 358 F.3d 1217, 1221 (9th Cir.
2004) (finding there is no recency requirement and "[t]he only
2

6

A. Under the Sixth Circuit's Interpretation of the
Statute, Minor Offenders Will Enter Adulthood
as Career Criminals.
ACCA does not allow for consideration of the
infirmities of youth in its application of mandatory
sentence enhancements. ACCA further includes
juvenile adjudications as qualifying offenses,
explicitly including in the definition of a conviction, "a
finding that a person has committed an act of juvenile
delinquency involving a violent felony."4
ACCA's definition of a violent felony further
includes an "act of juvenile delinquency involving the
use or carrying of a firearm, knife, or destructive
device that would be punishable by over one year of
imprisonment if committed by an adult."5 There is
"no authority to ignore [an otherwise qualified]
conviction because of its age or its underlying
circumstances.
Such
considerations
are
irrelevant . . . under the Act."6 ACCA has, in fact,
been applied in cases where all of the predicate
offenses were committed by a juvenile offender.7

time limitation supported by the language of the Armed Career
Criminal Act is that the predicate convictions be 'previous.1.
18 U.S.C. § 924(e)(2)(C).
18 U.S.C. § 924(e)(2).
6 United States v. Moody, 770 F.3d 577, 580 (7th Cir. 2014)
(citing Shepard v. United States, 544 U.S. 13, 15-17 (2005)); see
also United States v. Keesee, 358 F.3d 1217, 1221 (9th Cir. 2004)
("The only time limitation supported by the language of the
Armed Career Criminal Act is that the predicate convictions be
`previous."').
See United States v. Chappel, 801 Fed. App'x 379, 383 (6th Cir.
2020) (finding the application of ACCA permissible under the

7

One night of adolescent indiscretion or peerprompted over-indulgence can thus result in
designation as a career criminal for life, eliminating
the possibility of rehabilitation, growth, and
maturity, all of which are the empirically
demonstrated attributes of brain development from
childhood through adulthood. ACCA prohibits lower
courts from considering factors that have been
deemed critical by this Court in its Eighth
Amendment jurisprudence when sentencing
individuals whose predicate offenses accrued as
juveniles. Adoption of the Sixth Circuit's expansive
interpretation of ACCA's "different occasions"
requirement will exacerbate this situation leading to
extremely harsh sentences for even greater numbers
of minors who will be unjustifiably designated as
"career criminals "
An estimated 76,000 children are prosecuted in
the adult criminal justice system every year in the
United States.8 It is difficult, however, to estimate
with any degree of certainty how many individuals
are currently incarcerated for crimes they committed
as children.9 As of June 27, 2020, data from the U.S.
Sentencing Commission revealed that there were 437
Eighth Amendment where the defendant had a long rap sheet,
including the predicate offenses, all committed as a juvenile).
8 See Charles Puzzanchera, et al., Youth Younger than 18
Prosecuted in Criminal Court: National Estimate, 2015 Cases,

Nat'l Center for Juvenile Justice (2018), available at,
http://www.cfyj.org/images/Transfer-estimate.pdf (last accessed
May 9, 2021).
9 This data is not readily accessible though there is pending
legislation that would require this information to be maintained.
See H.R. 2908, 117th Congress (2021).

8

offenders in BOP custody who had been sentenced to
20 years or longer who were under the age of 21 at the
time of sentencing.10
Even in the absence of precise numbers of
potentially affected individuals, the Sixth Circuit's
interpretation raises serious concerns about how
ACCA could be applied to child offenders. The Act
explicitly allows for prior adjudications in juvenile
court, as well as prior convictions in adult criminal
court, to count as predicate offenses." This raises a
myriad of additional concerns for child offenders, not
the least of which is that Texas, Wisconsin, and
Georgia exclude 17 year-olds from juvenile court
altogether.12 The practical implication of the practices
of these outlier jurisdictions is that an unarmed 17
year old who burglarizes 10 storage units at the same
storage facility in the same evening would not be
eligible for an ACCA enhancement in 47 states, but
under the interpretation of the Sixth Circuit, would
be so eligible in the states that exclude 17 year olds
from juvenile court.13
This is just the beginning of what such an
erroneous interpretation of ACCA would mean for
child offenders. Another example of how such an
I° U.S. Sentencing Commission data request.
" 18 U.S.C. § 924(e).
" 2020 State Ratings Report on Human Rights Protections for
Children in the U.S. Justice System, 10, available at,
https://humanrightsforkids.org/
wp-content/uploads/State-Ratings-Report_2020.pdf
(last
accessed May 9, 2021).
13 Id.; see also United States. v. Lender, 985 F.2d 151 (4th Cir.
1993).

9

interpretation could trigger harsh mandatory
minimums for kids is that of Zyion Houston-Sconiers
who was 17 years old when he committed offenses in
Washington State that led to six convictions of
robbery in the first degree when he and another youth
robbed several other children of their Halloween
candy on Halloween night in 2012.14 Similarly, 15year-old Travion Blount was convicted of 49 felonies
arising from his role in the robbery of 12 people at a
house party in Norfolk, Virginia, in 2008.15
The multiple convictions arising from these single
criminal opportunities underscore why the Sixth
Circuit's interpretation would be particularly harmful
to child offenders. The construction of ACCA applied
by the Sixth Circuit and other courts affords juveniles
like Mr. Houston-Sconiers and Mr. Blount with no
opportunity to learn from a single night's mistakes
before carrying the permanent designation of a career
criminal In the event that a child is convicted of
multiple charges stemming from a single incident, as
in the case of the Petitioner, he or she could face the
prospect of being branded a career criminal and
subject to the harsh mandatory minimum sentence
that accompanies such a designation, an outcome that
is clearly at odds with this Court's jurisprudence and
the intent of Congress.

14

15

State v. Houston-Sconiers, 188 Wash. 2d 1 (Wash. 2017).
Blount v. Clarke, 890 F.3d 456 (4th Cir. 2018).

10
B. This Court Has Long Recognized that the
Decisions of Child Offenders Are Not Indicative
of "Career Criminal" Status.
In broadening the class of "career criminals" who
accrued their ACCA predicate offenses while they
were children, a result ACCA explicitly condones,1°
the Sixth Circuit's expansive reading of the statute's
"different occasions" language contravenes this
Court's juvenile sentencing doctrine. Despite this
Court's evolving jurisprudence adopting empirical
research demonstrating that children's brains are not
fully developed, particularly as it relates to risk
assessment and judgement, adoption of the Sixth
Circuit's construction of ACCA would increase the
pool of children whose hotheaded behavior on a single
night saddles them with the sentencing "scarlet
letter" of an ACCA enhancement. This result
contravenes this Court's Eighth Amendment juvenile
sentencing analysis which views rehabilitation, as
opposed to incapacitation, deterrence or retribution,
as the primary objective to be achieved in sentencing
children.
This Court's precedents have long recognized that
children's decision-making leading to criminal
conduct simply cannot be viewed in the same light as
similar adult conduct. Youth is not a mere
"chronological fact," but "a time and condition of life
when a person may be most susceptible to influence
and to psychological damage."17 This notion is
reflected in a broad array of societal mores limiting
16
17

18 U.S.C. § 924(0(2)(0.
Eddings v. Oklahoma, 455 U.S. 104, 115 (1982).

11

the freedom and choices of children precisely because
they lack the maturity of adults. Unlike adults,
children are deemed insufficiently mature and
capable of rational judgment to vote, marry without
parental consent, sit on a jury, or purchase alcohol or
tobacco, and none of those prohibitions are viewed as
being particularly controversia1.18 Moreover, this
Court's precedents have applied the concept broadly
to an array of life activities.19
In the criminal sentencing context, this Court's
modern precedents first addressed the maturity and
decision-making of minor children in Eddings v.
Oklahoma,20 holding that a minor child must be
permitted to present evidence of abuse and neglect by
his parents in death penalty sentencing proceedings.
Justice Powell noted that "[e]ven the normal 16-yearold customarily lacks the maturity of an adult."2 '
This Court next addressed the subject in Thompson v.
Oklahoma,22 holding that the death penalty may not
be imposed upon defendants who were under the age
of 16 at the time of their criminal conduct. The Court
grounded its decision in the social science consensus
that "Rinexperience, less education, and less
18 Thompson v. Oklahoma, 487 U.S. 815, 823 (1988).
' 9 See Bellotti v. Baird, 443 U.S. 622, 635 (1979) (upholding
parental consent requirement for abortion); Ginsberg v. New
York, 390 U.S. 629, 638-39 (1968) (affirming conviction for
distributing non-obscene sexually oriented magazine to child,
even though conviction would have been infirm as to distribution
to an adult); Prince v. Massachusetts, 321 U.S. 158, 169 (1944)
(upholding child labor prohibition notwithstanding child's
sincere religious desire to sell leaflets).
455 U.S. at 116.
2' Id.
" 487 U.S. 815 (1988).

12

intelligence make the teenager less able to evaluate
the consequences of his or her conduct while at the
same time he or she is much more apt to be motivated
by mere emotion or peer pressure than is an adult."23
Nearly two decades after Thompson, the Court
continued its line of juvenile sentencing doctrine in
Roper v. Simmons,24 holding that the Eighth and
Fourteenth Amendments bar the execution of
defendants who were under 18 years of age at the
time of their crime. The Court identified three
differences between adults and children that
"demonstrate that juvenile offenders cannot with
reliability be classified among the worst offenders."25
First, the Court explained that a "lack of maturity and
underdeveloped sense of responsibility are found in
youth more often than in adults and are more
understandable among the youth," resulting in
"impetuous and ill-considered actions and
decisions."28 Second, the Court noted that children
"are more vulnerable or susceptible to negative
influences and outside pressures, including peer
pressure."27 Third, and most critically in the context
of ACCA's sentencing enhancement provision
targeting irredeemable, "career criminals," the Court
found that "the character of a juvenile is not as well
formed as that of an adult" with "more transitory, less
fixed" personality traits.28
Id. at 835.
543 U.S. 551 (2005).
25 Id. at 569.
26 Id. (quoting Johnson v. Texas, 509 U.S. 350, 367 (1993)).
22 Id.
ze Id. at 570.
23
24

13

The Court found that these three differences
"render suspect any conclusion that a juvenile falls
among the worst offenders" and make it "less
supportable to conclude that even a heinous crime
committed by a juvenile is evidence of irretrievably
depraved character."29 Because "the signature
qualities of youth are transient," "a greater possibility
exists that a minor's character deficiencies will be
reformed" and "only a relatively small proportion of
adolescents who experiment in risky or illegal
activities develop entrenched patterns of problem
behavior that persist into adulthood."39 The Court
further noted that the Diagnostic and Statistical
Manual of Mental Disorders prohibited psychiatrists
from diagnosing juvenile patients with antisocial
personality disorder - which has many symptoms
consistent with career criminal status - because of the
transient nature of juvenile brains and
personalities.31
This Court next decided Graham v. Florida,32
holding that the Eighth Amendment prohibits the
imposition of life without parole sentences for
juvenile, non-homicide offenders. The Graham Court
reaffirmed Ropeis rationale, embracing research on
child brain development, included in submissions
from the American Medical Association and American
Psychological Association as amid, in finding that
"developments in psychology and brain science
continue to show fundamental differences between
Id.
° Id. (internal quotations omitted).
3' Id. at 573.
560 U.S. 48 (2010).

29
3

14

juvenile and adult minds." 33 The Court held these
findings undermined any penological justifications for
a life without parole sentence, particularly the
rationale of incapacitation. Quoting Roper, the Court
held that "[fit is difficult even for expert psychologists
to differentiate between the juvenile offender whose
crime reflects unfortunate yet transient immaturity,
and the rare juvenile offender whose crime reflects
irreparable corruption."34 The Court also relied upon
the "special difficulties encountered by counsel in
juvenile representation" with respect to juvenile
clients characterized by reduced ability to weigh longterm consequences, impulsiveness, and a reluctance
to trust defense counse1.35
In Miller v. Alabama,36 the Court again relied on
these innate attributes of childhood to hold that the
Eighth Amendment bars mandatory life
imprisonment without parole sentences for
defendants who commit their crimes as children.
Citing post- Graham psychological studies, the Court
explained that "the science and social science
supporting Roper's and Graham's conclusions have
become even stronger."37 In Montgomery v.
Louisiana,38 the Court held that Milleis rule applied
retroactively on state collateral review, again relying
on the reasoning of Roper and Graham. Finally, just
this year in Jones v. Mississippi,39 the Court affirmed
" Id. at 68.
34 Id. at 73-73.
35 Id. at 78-79.
" 567 U.S. 460 (2012).

" Id. at 472.
" 577 U.S. 190,206-07 (2016).
39 No. 18-1259, slip op. at 8,593 U.S.

(2021).

15

Miller and the underlying rationale on which it was
based.41
Relying on current research into the development
of the adolescent brain, there is a movement among
state courts and state legislatures barring mandatory
minimum sentences for child defendants regardless of
the underlying offense.40 At least two state supreme
courts have issued rulings to prohibit mandatory
minimum sentences for juvenile offenders.41 State
legislatures are also increasingly enacting juvenile
sentencing reforms limiting, and even eliminating,
the imposition of mandatory minimum sentences on
children in recognition of their not fully developed
neurophysiology.42
Although this case does rest upon an Eighth
Amendment analysis, this Court's evolving line of
precedent, concluding that youth matters in
sentencing, adds special considerations when an
41 Id.
° Suzanne S. La Pierre & James Dold, The Evolution of Decency:
Why Mandatory Minimum and Presumptive Sentencing
Schemes Violate the Eighth Amendment for Child Offenders,
27:2 VA. J. Soc. POL'Y & L. 167, 176-84 (2020).
41 Houston-Sconiers, 391 P.3d at 420 ("Trial courts must consider
mitigating qualities of youth at sentencing and must have
discretion to impose any sentence below the otherwise applicable
[sentencing] range and/or sentence enhancements"); State v.
Lyle, 854 N.W.2d 378, 399 (Iowa 2014) ("Rehabilitation and
incapacitation can justify criminally punishing juveniles, but
mandatory minimums do not further these objectives in a way
that adequately protects the rights of juveniles within the
context of the constitutional protection from the imposition of
cruel and unusual punishment for a juvenile") (emphasis in
original).
42 See La Pierre & Dold, supra n.40, at 182-84.

16

erroneous interpretation broadens the scope of federal
law to expose more child offenders to lengthy
mandatory minimum sentences. The empirical
research supporting the decades of relevant case law
confirms that crimes committed by children are, in all
but the rarest of cases, the product of a transient set
of circumstances that do not reflect immutable
characteristics of the child's identity or predict the
child's future behavior. In conflict with this reality,
the construction of ACCA adopted by the Sixth Circuit
below would unjustifiably broaden the group of
children deemed hardened, habitual offenders,
incapable of rehabilitation, and thus deserving of
ACCA's drastic mandatory sentencing enhancement,
yet premised solely on a single night of brash
behavior.
The empirically demonstrated differences between
the child and adult brain "render suspect any
conclusion that a juvenile falls among the worst
offenders"43 and thus could conceivably qualify as a
"career criminal" under ACCA. The entire premise of
ACCA's sentencing enhancement — of the "critical
need to target the habitual offender [and] incarcerate
unrehabilitative [sic] repeat violent felons for lengthy
periods"44 — is thus categorically inapplicable to
juveniles, especially when the qualifying prior
criminal conduct took place on a single occasion, as
that term is commonly understood, and does not
reflect "repeat" behavior in any sense of the term.

43
44

Id. (italics added)
134 Cong. Rec. 15,806-07 (1988) (statement of Sen. Specter).

17

This Court has found that "[amn offender's age is
relevant to the Eighth Amendment, and criminal
procedure laws that fail to take defendants'
youthfulness into account at all would be flawed."45
Mandatory minimum sentences for juvenile offenders
undermine the fundamental principle that the
purpose of juvenile punishment is rehabilitation.46
The Miller Court recognized the importance of
considering the "mitigating qualities of youth!"47 In
fact, the Court found that mitigating factors are more
relevant in the cases of juvenile offenders than they
are in the case of adults.48 Unfortunately, ACCA was
not worded with such considerations in mind as its
focus was on the "worst of the worst." Thus, the
statute's lack of sentencing discretion precludes
consideration of age and all of the factors identified
and deemed relevant in Miller. Accordingly, ACCA's
breadth should not in turn be augmented by an overly
expansive reading of the "different occasions"
language as adopted by the Sixth Circuit.
Eight circuits apply the ACCA enhancement too
broadly, finding it applicable when crimes are
committed at different moments, even when
committed sequentially at the same location and

Graham, 560 U.S. at 76. See also, Johnson v. Texas, 509 U.S.
350, 367 (1993) (holding that a jury was free to consider a 19year-old defendant's youth when determining whether there was
a probability that he would continue to commit violent acts in
the future (quoting Eddings v. Oklahoma, 455 U.S. at 115).
46 See La Pierre & Dold, supra note 40, at 175.
47 Miller, 567 U.S. at 476 (quoting Johnson v. Texas, 509 U.S.
350, 367 (1993)).
48 Id. at 476 (citing Eddings v. Oklahoma, 455 U.S. at 112).
45

18

during the same criminal opportunity 49 Other
circuits interpret the "occasions" language more in
line with the common understanding of the concept
and apply the enhancement only when crimes are
committed
under
indisputably
separate
circumstances.50 These courts "distinguish between
the defendant who simply commits several offenses in
a connected chain of events and the defendant who is
targeted by ACCA—someone who commits multiple
crimes separated by substantial effort and
reflection."51
This Court's approach to sentencing children
under the Eighth Amendment requires adoption of
the latter courts' interpretation.52 These Circuits
correctly hold that where acts were "part of one
criminal episode" the offender does "not meet the

49 Carter, 969 F.3d at 1243; see also United States v. Schoolcraft,
879 F.2d 64, 73 (3d Cir. 1989); United States v. Fuller, 453 F.3d
274, 278 (5th Cir. 2006) (whether offenses occurred sequentially
is "[t]he critical inquiry"); Morris, 821 F.3d at 880; United States
v. Abbott, 794 F.3d 896, 898 (8th Cir. 2015) ("[T]o prove that two
offenses are sufficiently separate and distinct for ACCA
purposes, it is sufficient ... to show that some time elapsed
between"); United States v. Johnson, 130 F.3d 1420, 1431 (10th
Cir. 1997); United States v. Thomas, 572 F.3d 945, 951 (D.C. Cir.
2009); United States v. Hill, 440 F.3d 292, 297-98 (6th Cir.
2006).
o United States v. Bordeaux, 886 F.3d 189, 196 (2d Cir. 2018)
(Cabranes, J.) (concluding that courts should "consider not only
when a defendant committed different crimes, but also the other
circumstances of the crimes"); United States v. Tucker, 603 F.3d
260, 263 (4th Cir. 2010); United States v. Stearns, 387 F.3d 104,
108 (1st Cir. 2004); McElyea, 158 F.3d at 1021.
s' Bordeaux, 886 F.3d at 196.
sz See, e.g., Graham, 560 U.S. 48.

19

profile of a career criminal envisioned by Congress."53
Indeed, Congress did not envision thousands of
children being punished for their entire lives based on
imprudent decisions taken during the span of a
single, foolhardy undertaking. The principles that
underlie the Court's stated justification for juvenile
sentencing require a narrow reading of the "different
occasions" language of ACCA, so as to minimize the
number of children denied consideration of the
acknowledged infirmities of youth and maximize
those afforded the opportunity for rehabilitation and
redemption.
II. EXPANSIVE INTERPRETATION OF THE
ARMED CAREER CRIMINAL ACT
CONTRAVENES CONGRESSIONAL INTENT
AND SHOULD BE NARROWED.
Under ACCA, a defendant convicted of possessing
a firearm or ammunition in violation of federal law
faces a significantly more severe punishment if he has
three or more previous convictions for a "violent
felony" or "serious drug offense," or both, "committed
on occasions different from one another."54 In the case
below, this enhancement caused Mr. Wooden to face
a mandatory minimum sentence of fifteen years in
prison, approximately seven times his Sentencing
Guidelines range of 21 to 27 months.
The Act defines a violent felony as a felony
involving the "use of physical force" or burglary,

53
54

McElyea, 158 F.3d at 1021.
18 U.S.C. § 924(e).

20

arson, extortion, or one involving explosives.55 The
definition was previously more expansive, until this
Court invalidated its residual clause in Johnson v.
United States as confusing, unpredictable, uncertain,
and a violation of the Constitutional guarantee of due
process.56 A serious drug offense is defined as certain
offenses involving controlled substances with a
maximum possible sentence of ten years or more.57
Notwithstanding the "wide differences" between the
juvenile and adult justice systems,59 as previously
discussed, the Act explicitly permits certain
"finding[s] that a person has committed an act of
juvenile delinquency" to serve as a predicate for the
sentencing enhancement.59
While the Act defines which previous convictions
to consider, it does not specify when these offenses are
deemed to be "committed on occasions different from
one another."69 The determination of whether a
previous conviction qualifies as a predicate offense
and whether to apply ACCA's enhancement at all, as
in the present case, often depends on whether this
additional statutory requirement is met .51

" 18 U.S.C. § 924(e)(2).
56 Johnson v. United States, 576 U.S. 591, 606 (2015).
" 18 U.S.C. § 924(0(2)(A).
58 In re Gault, 387 U.S. 1, 15 (1967).
59 18 U.S.C. § 924(0(2)(C).
60 18 U.S.C. § 924(e).
61 See, e.g., United States v. Wooden, 945 F.3d 498, 504-06 (6th
Cir. 2019).

21
A. ACCA was Only Intended to Apply to the
Narrow Subset of Irredeemable Offenders
Identified after Multiple Opportunities for
Rehabilitation.
The legislation that would become ACCA was
introduced in 1981 by Senator Arlen Specter, of
Pennsylvania, a former district attorney.62 At the
time, there was a growing recognition that a large
percentage of crime is committed by a very small
percentage of repeat offenders.63
Ordinarily, conviction for unlawful possession of a
firearm under 18 U.S.C. § 922(g) is subject to a
sentence between zero to ten years." Senator Specter
proposed to mandate life imprisonment without the
possibility of a suspended sentence for career
criminals.65 The final version of the Act mandated a
sentence of fifteen years to life.66 This sentencing
enhancement is significant, ,as the mandatory
minimum of fifteen years is higher than the
maximum sentence without the enhancement.67 The
result is that sentences for convictions under § 922(g)
from 2008 through 2012 without the ACCA
enhancement averaged 46 months, compared to an

S. 1688, 97th Cong. (1981); see also 129 Cong. Rec. 22,669-72
(1981) (statement of Sen. Specter).
63
See Comprehensive Crime Control Act of 1984, Pub. L. No. 98473, 98 Stat. 1837, Title II, Ch. XVIII § 1801-03; H.R. Rep. No.
981073, at 1, as reprinted in 1984 U.S.C.C.A.N. 3661, 3661
[hereinafter "Comprehensive Crime Control Act"].
64 18 U.S.C. § 924(0(2).
65 S. 1688, 97th Cong. § 2 (1981).
66 18
§ 924(e).
67 18 U.S.C. §§ 922(a)(2), 924(e).

22

average of 180 months with the ACCA
enhancement.68 In 2019, the average sentence with
the ACCA enhancement was even higher at 206
months.69 These extreme disparities demonstrate
that the statute is not intended to punish the
possession of a firearm per se, but to prevent future
injury to others and remove offenders deemed
irredeemable from the streets.
Senator Specter's motivation was "[t]he critical
need to target the habitual offender . . . and the need
to incarcerate unrehabilitative [sic] repeat violent
felons for lengthy periods . . . [to] incapacitat[e] the
truly dangerous criminal . . . It is my view that the
only way to deal with such hardened criminals is with
stiff prison terms with no prospect for parole."70
Attorney General Stephen Trott testified before
the House Subcommittee on Crime that:
These are people who have
demonstrated . . . that locking them up
and letting them go doesn't do any good.
Quick Facts: Felon in Possession of a Firearm, U.S. Sent'g
Comm'n
(2012)
,available
at,
https://www.ussc.goy/sites/default/files/pdf/
research-and-publications/quick-facts/Quick Facts Felon in
Possession of a_Firearm.pdf (last accessed May 9, 2021).
Federal Armed Career Criminals: Prevalence, Patterns, and
Pathways, U.S. Sent'g Comm'n 6 (March 2021), available at,
https://www.ussc.goy/sites/default/files/pdf/research-andpublications/research-publications/2021/20210303_ACCAReport.pdf (last accessed May 9, 2021).
134 Cong. Rec. 15,806-07 (1988) (statement of Sen. Specter)
(based on the recommendation of the National Commission on
Criminal Justice Standards and Goals).

23

They go on again, you lock them up, you
let them go, it doesn't do any good, they
are back for a third time. At that
juncture we should say, "That's it; time
out; it is all over. We as responsible
people, will never give you the
opportunity to do this again."71
These individuals were "three-time losers"
because they had foregone three prior opportunities
to live as law-abiding members of society.72 The goal
to incapacitate repeat offenders through
incarceration remains central to the Act today.73
Similarly, state habitual offender statutes are
generally interpreted as requiring each successive
felony to be committed after the previous conviction
to count towards habitual criminal status.74
Accordingly, two or more convictions on the same day,
or on the same indictment, constitute only one
conviction under most state laws similar to ACCA.75
The underlying rationale is that a habitual
criminal statute serves "as a warning to first time
offenders and provide[s] them with an opportunity to
71 Armed Career Criminal Act: Hearing on H.R. 1627 and S. 52
Before the Subcomm. on Crime of the House Comm. on the
Judiciary, 98th Cong., 2d Sess. 6 (1984).
72 H.R. Rep. No. 1073, 98th Cong., 2d Sess. 4, 5 (1984), U.S. Code
Cong. Admin. News 1984, pp. 3182, 3664, 3665.
73 See, e.g., Federal Armed Career Criminals, supra at n.69, at
11.
74 See Ewing v. California, 538 U.S. 11, 32-52 (2003) (Breyer, J.,
dissenting); State v. Ellis, 214 Neb. 172, 176 (1983) (collecting
cases from various states).
74 Ellis, 214 Neb. at 174-75.

24

reform. [S]anctions become increasingly severe 'not
so much that [the] defendant has sinned more than
once as that he is deemed incorrigible when he
persists in violations of the law after conviction of
previous infractions."'76 In other words, sentence
enhancements are given only after "conviction and
punishment have failed to reform."77
ACCA was drafted to apply only to "hard core . .
career criminals" and was "focus[ed] on the .. . very
worst offenders with the worst records."78 Unlike the
case at hand, there are cases where ACCA has been
appropriately applied to these sorts of "truly
dangerous criminals" who have been given multiple
chances for rehabilitation.79
B. The Act Requires a Narrow Interpretation of

Temporal Separateness.
76 Alaska v. Carlson, 560 P.2d 26, 28-29 (Alaska 1977)
(alterations in original) (quoting Annotation, Chronological or
Procedural Sequence of Former Convictions as Affecting
Enhancement of Penalty for Subsequent Offense Under
Habitual Criminal Statutes, 24 A.L.R.2d 1247, 1249 (1952)).
77 Kansas v. Lohrbach, 217 Kan. 588, 592-93 (1975) (holding that
the trial court erred in sentencing defendant as habitual
offender based on four prior felony convictions rendered on the
same date).
78 S. Rep. No. 97-585, at 62-63 (1982).
79 United States v. Bland, 961 F.2d 123, 125, 129 (9th Cir. 1992)
illustrates the type of individual to whom ACCA's sentencing
enhancement was intended to apply. After thirteen violent
felonies, twenty-three years in jail, and release following
incarceration five times, the defendant fell clearly within
Congress' intention for the Act, to protect the public from those
individuals whose extensive criminal history appears
incompatible with rehabilitation.

25

As originally enacted in 1984, ACCA had no
express requirement that the defendant commit the
predicate offenses on different occasions.80 In 1988,
Congress amended the Act by inserting the
requirement that the predicate offenses be committed
"on occasions different from one another."81 Congress
added this language to the statute after the Eighth
Circuit held in United States v. Pettythat an incident
in which a defendant was convicted of six counts of
robbery for simultaneously robbing six restaurant
patrons during one "stick up" was sufficient to apply
the ACCA enhancement.82 The Solicitor General
subsequently admitted error in applying the ACCA
enhancements in the case, resulting in this Court's
vacating the lower court's ruling. 83
Congress added the qualifying phrase precisely to
eliminate outcomes like that reached by the Petty
Court in which one crime spree, generating multiple
charges based on different conduct by a defendant,
resulted in an ACCA sentence enhancement.84 The
addition of the "different occasions" requirement was

" See Comprehensive Crime Control Act, supra at n.63.
8' 18 U.S.C. § 924(e)(1); Anti-Drug Abuse Act of 1988, Pub. L. No.
100-690, § 7056, 102 Stat. 4181, 4402 (1988) (codified at 18
U.S.C. § 924(e)(1)) [hereinafter "Anti-Drug Abuse Act"]; see also
McElyea, 158 F.3d at 1019-20.
82 798 F.2d 1157, 1159-60 (8th Cir. 1986), vacated, 481 U.S. 1034
(1987).
83 Id.
84 See Hudspeth, 42 F.3d at 1023 (finding crimes committed
"simultaneously" should count as only one conviction) (quoting
134 Cong. Rec. S17,370 (daily ed. Nov. 10, 1988) (remarks of Sen.
Biden)).

26

"intended to prevent counting simultaneous crimes
separately."85
In the present case, Mr. Wooden was considered a
career criminal due to ten counts of burglary in
Georgia, occurring on the same date, at the same
time, at the same address, and in the same manner at
a mini-storage facility.88 His conduct is not legally
distinguishable from that of the defendant in Petty,
whose erroneous decision was the acknowledged
impetus for Congress amending ACCA to include the
limiting provision.87 Courts have a duty "to give
effect, if possible, to every clause and word of a
statute."88 If this Court upholds the Sixth Circuit's
interpretation of the Act, it would fail to give meaning
to the "different occasions" clause added in 1988, a
decision that could be most charitably characterized
as demonstrating "that the legislature was ignorant
of the meaning of the language it employed."89
To implement Congressional intent, and avoid
creating career criminals based on criminal activity
occurring in an uninterrupted chain of events, the
"different occasions" language of ACCA must be given
a narrow construction. ACCA was enacted to handle
the small subset of especially dangerous criminals
whose unrepentant conduct became apparent over
time. Congress took a clear step after Petty to prevent
" United States v. Pope, 132 F.3d 684, 692 (11th Cir. 1998).
86 Wooden, 945 F.3d at 505.
87 See Anti-Drug Abuse Act, supra at n.811; McElyea, 158 F.3d
at 1019-20.
88 Montclair v. Ramsdell, 107 U.S. 147, 152 (1882) (emphasis
added).
89 Id.

27

varying state interpretations of a single criminal
opportunity, such as the situation presented in this
case, from triggering application of ACCA's
mandatory sentencing enhancement.
The rule applied by the Sixth Circuit in this case
impermissibly expands ACCA's sentencing
enhancement intended only for "repeat offenders,"
"revolving door offenders," "habitual offenders,"
"recidivists," and the "very worst offenders" who are
beyond rehabilitation, to potentially ensnare
individuals, including children, who have engaged in
criminal activity solely on a single day or night of
their lives.90 This result eviscerates Congress' intent
in enacting ACCA. It is manifestly unjust when
applied to any defendant, but particularly odious
when applied to children.

° See discussion supra Sections I.A.—I.B.

9

28
CONCLUSION
For the foregoing reasons the Court should reverse
the decision below.
Respectfully submitted,
James Dold
Suzanne S. La Pierre
John Ellem
Human Rights for Kids
P.O. Box 5960
Washington, DC 20016
(202) 573-7758

Tony W. Torain, II
Counsel of Record
D. Jack Blum
Alexandra Brooks
Polsinelli PC
1401 I ("Eye") Street, N.W.
Suite 800
Washington, DC 20005
(202) 783-3300
twtorain@polsinelli.com

Attorneys for Amicus Curiae
May 10, 2020

